               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




                U.S. Postal Service
              Parcel Delivery Lockers

               Management Advisory




                                              May 6, 2013

Report Number DR-MA-13-002
                                                                               May 6, 2013

                                                                    U.S. Postal Service
                                                                Parcel Delivery Lockers

                                                          Report Number DR-MA-13-002



BACKGROUND:
The U.S. Postal Service developed the         finalization. These issues have not yet
gopost® parcel delivery locker concept in     been explored because management
response to increasing parcel volumes         wanted to limit the initial functionality of
and the changing needs of customers.          the pilot to evaluate operational
The parcel delivery locker is a free          strategy.
alternative for customers to use
24 hours a day for both parcel shipment       The experiences of other posts indicate
and receipt. Registered customers use         that broadening the options tested
their gopost card and personal                during the pilot may be warranted.
identification number to ship and receive     Exploring greater possibilities with
parcels and receive email or text             parcel lockers could allow management
notifications of parcel shipments.            to evaluate additional revenue
                                              generating and cost sharing
The Postal Service implemented the            arrangements and give them a more
parcel delivery locker pilot in the Capital   informed basis for implementing gopost
Metro Area on February 2012. As of            on a broader scale. Cost avoidance
January 2013, it deployed 13 lockers,         opportunities related to reduced missed
with 12 additional locations planned          deliveries and lower labor rates may
before ending the pilot. Our objective        further support the business case. We
was to assess the parcel delivery locker      estimate they could avoid annual labor
pilot.                                        costs of between $147,000 and
                                              $634,000 for the 13 locations.
WHAT THE OIG FOUND:
The parcel locker concept has                 WHAT THE OIG RECOMMENDED:
significant potential; however, while the     We recommended the vice president,
pilot has thus far provided some              Channel Access, coordinate with the
operational insight, it has been limited      vice president, Delivery and Post Office
and user adoption has been very slow.         Operations, to adjust pilot access and
Additionally, lessons learned from other      implementation factors to maximize
posts that have implemented parcel            customer use and add revenue and cost
lockers have not always been                  reduction features to maximize return-
considered or incorporated into the pilot.    on-investment opportunities. We also
For example, the Postal Service has not       recommended implementing parcel
made adjustments to simplify its              locker best practices and strategies from
complex registration process, even            international entities, where applicable.
though two-thirds of registered users
gave up on their registration before          Link to review the entire report
May 6, 2013

MEMORANDUM FOR:             KELLY M. SIGMON
                            VICE PRESIDENT, CHANNEL ACCESS

                            EDWARD F. PHELAN, JR.
                            VICE PRESIDENT, DELIVERY AND POST OFFICE
                            OPERATIONS




FROM:                       Robert J. Batta
                            Deputy Assistant Inspector General
                             for Mission Operations

SUBJECT:                    Management Advisory – U.S. Postal Service Parcel Delivery
                            Lockers (Report Number DR-MA-13-002)

This report presents the results of our review of U.S. Postal Service Parcel Delivery
Lockers (Project Number 13XG017DR000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Rita F. Oliver, director, Delivery
and Post Office Operations, or me at 703-248-2100.

Attachments

cc: Michael J. Amato
    David C. Fields
    Nan K. McKenzie
    Victoria K. Stephen
    Elizabeth A. Schaefer
    Corporate Audit and Response Management
U. S. Postal Service Parcel Delivery Lockers                                                                      DR-MA-13-002



                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 2

Parcel Delivery Lockers................................................................................................... 2

   Pilot Execution ............................................................................................................. 3

   Features Not in the Pilot .............................................................................................. 4

Recommendations .......................................................................................................... 8

Management’s Comments .............................................................................................. 8

Evaluation of Management’s Comments ......................................................................... 8

Appendix A: Additional Information ............................................................................... 10

   Background ............................................................................................................... 10

   Objective, Scope, and Methodology .......................................................................... 11

   Prior Audit Coverage ................................................................................................. 12

Appendix B: Pilot Site Locations and Performance Data............................................... 13

Appendix C: Monetary Impacts ..................................................................................... 14

Appendix D: Management's Comments ........................................................................ 16
U. S. Postal Service Parcel Delivery Lockers                                                          DR-MA-13-002



Introduction

This report presents the results of our review, which focuses on U.S. Postal Service
parcel delivery lockers. Our objective was to assess the parcel delivery locker pilot
(Project Number 13XG017DR000). This self-initiated review addresses operational risk.
See Appendix A for additional information about this review.

The Postal Service developed the gopost® parcel delivery locker concept in response to
increasing parcel volumes1 and the changing needs of customers. The parcel delivery
locker is a free alternative for customers to use 24 hours a day. Registered customers
use their gopost card and personal identification number (PIN) to ship and receive
prepaid barcoded parcels. They receive email or text notifications of parcel arrivals and
mailing confirmations (see Figures 1 and 2).

                     Figure 1.                                        Figure 2.
         gopost Ballston, VA Mall Location                    gopost Center Console View

                                                                       Security Camera




                                                                        Automated Touch
                                                                         Screen Display

                                                              Parcel                        Parcel
                                                              Label                         Receipt
                                                             Scanner     Parcel Pick-up      Slot
                                                                           Schedule
                                                                                                            Source:
        Photographs taken by the U.S. Postal Service Office of Inspector General (OIG) on
        January 14, 2013.

The Postal Service implemented the parcel delivery locker pilot in February 2012 at
shopping centers, commercially situated post offices, transportation hubs, or
intersections. As of January 2013, the Postal Service deployed 13 lockers in the Capital
Metro Area2 (see Appendix B), with 12 additional locations planned before ending the
pilot.

During the pilot, the Postal Service will gather sufficient data to support the decision
analysis report (DAR).3 Postal Service guidance allows piloting of a concept to support
DAR investment decisions.4 The DAR package will also include the Postal Service's


1
  The postmaster general stated in his February 13, 2013 testimony to the Senate’s Committee on Homeland
Security and Governmental Affairs that package sales increased 14 percent over the last 2 years.
2
  The Postal Service also deployed parcel delivery lockers in February 2013 at two locations in New York (the Grand
Central and Manhattanville Station) and is preparing to deploy a parcel delivery locker in Virginia. We did not
complete analyses on these parcel delivery lockers because no performance data exist.
3
  The purpose of a DAR is to ensure that investments are properly documented and reviewed.
4
  Postal Service Handbook F-66B, Investment Policies and Procedures – Major Equipment, dated January 2006.
                                                          1
U.S. Postal Service Parcel Delivery Lockers                                                          DR-MA-13-002



strategic and implementation plans, goals, and data needed for the reviewing and
approving officials to make the investment decision.

Conclusion

The parcel locker concept has significant potential. However, while the pilot has thus far
provided some operational insight, it has been limited and user adoption has been very
slow. Additionally, lessons learned from other posts have not always been considered
or been incorporated into the pilot. For example, the Postal Service has not made
adjustments to simplify its complex registration process, even though two-thirds of
registered users gave up on their registration before finalizing the process. The
Postal Service did not explore these issues in the pilot because it wanted to limit the
initial functionality of the gopost pilot to evaluate its operational strategy.

The experiences of other posts indicate that broadening the options tested during the
pilot may be warranted. Exploring greater possibilities with delivery parcel lockers could
allow the Postal Service to evaluate additional revenue generating and cost sharing
arrangements and generally have a more informed basis for determining whether it
should implement gopost on a broader scale. Cost avoidance opportunities may further
substantiate the business case, as we estimate the Postal Service could avoid workhour
costs of between $147,000 and $634,000 annually for the 13 locations (see Appendix
C).

Parcel Delivery Lockers

To gain a competitive edge in the parcel industry, the Postal Service began pilot testing
gopost parcel delivery lockers5 in February 2012 to provide customers with a convenient
and flexible alternative to their parcel delivery needs. Specifically, the parcel delivery
locker initiative will:

   Increase the Postal Service's parcel readiness efforts as future online retail growth
    continues.6

   Expand available parcel delivery and shipment options for customers by giving them
    an easy, convenient, and secure package delivery alternative.7

   Provide the Postal Service with a marketing edge, using similar strategies
    implemented by international entities, over some of its large parcel delivery
    competitors that do not offer secure parcel locker service.


5
  The parcel locker concept is a major equipment investment that requires completion of a DAR and approval of
senior management officials. The DAR process allows piloting as a way to support expected benefits. Piloting before
full implementation is important for identifying needed adjustments and illustrating the potential to succeed on a
full-scale basis.
6
  OIG is conducting a separate review of the Postal Service’s readiness for package growth.
7
  It could reduce customer concerns related to missed deliveries, address mix-ups, stolen packages, or
weather-damaged goods.


                                                         2
U.S. Postal Service Parcel Delivery Lockers                                                               DR-MA-13-002




Pilot Execution

Although parcel lockers offer many opportunities, we identified areas of concern with the
execution of the pilot, including the registration process, site location, volume targets,
and number of parcel pick-up days allowed.8 Further, the pilot results from the 13 parcel
delivery lockers do not contain many strategies implemented internationally for similar
locker systems.

   Registration Process – The full registration process required to access parcel
    delivery lockers is cumbersome for users and will likely limit adoption. Sixty-six
    percent (or 1,936 of 2,929) of the registered customers who wanted to participate in
    the pilot9 did not have parcel delivery locker access. The registration process
    requires a customer to pre-register online, receive a parcel locker access card in the
    mail (which can take 7 to 10 days), and complete the final authentication step by
    visiting a designated Post Office. The full registration process could take more than
    10 days to complete, mainly because the final step requires a visit to a Post Office.
    In contrast, to gain full access, Australia Post customers only need to register online
    to establish a customer identification number. Additionally, Deutsche Post Dalsey,
    Hillblom, and Lynn (DHL) customers also register online, but a delivery person
    performs the final authentication step required to complete the registration process
    when it delivers the customer’s registration package, which includes the access
    card. The 66 percent of customers without access to gopost needed to complete the
    final authentication step but did not, based on convenience or other reasons. One
    gopost user indicated to the OIG that the Postal Service clerk was unfamiliar with the
    authentication process, which resulted in a 4-week delay in gaining access. As plans
    to expand locker usage continue, streamlining the registration process and ensuring
    staff familiarity and training could reduce the significant gap between customers who
    are pre- and fully registered to use the parcel delivery lockers.

   Site Location – Postal Service management needs to re-evaluate their site location
    criteria as they continue to deploy parcel delivery lockers during the pilot phase. All
    13 pilot sites are in the Capital Metro Area (six that are near postal facilities and
    seven that are not). Headquarters officials based their site selection criteria on
    research, focus groups, and quantitative results,10 which indicated placement in
    high-traffic areas that are convenient to customers. They also wanted the initial sites
    to be near Postal Service Headquarters. District delivery officials were involved in
    the initial pilot implementation stages but not throughout the process. Delivery
    officials indicated that they provided input on suggested site locations; however, the
    final selections were not always in the best locations. For example, they indicated

8
  We attempted to obtain benchmarking data from four international posts, but only received responses from the
Royal Mail Group (RMG) and Australia Post. RMG indicated that although it did initiate a parcel locker pilot test, it
discontinued its efforts due to other priorities and delays with its supplier. We also researched data available online
for other postal and nonpostal locations that offer parcel delivery lockers, such as Deutsche Post DHL.
9
  Based on data provided by Postal Service Headquarters.
10
   Their quantitative results identified target markets that have younger consumers (18 to 34 years old), college-
educated male, eCommerce customers, tech-savvy consumers, and renters.


                                                            3
U.S. Postal Service Parcel Delivery Lockers                                        DR-MA-13-002



       that one of the parcel delivery lockers was in a location that normally receives low-
       parcel volumes, and customer traffic can only view the rear-side of a parcel locker in
       another location. Australia Post also launched their 24/7 Parcel Lockers in postal
       and non-postal facilities, such as business hubs. It indicated that one of its lessons -
       determining suitable sites (in areas of demand) should not be underestimated.

       If they were involved more in the process, district delivery officials could provide
       suggested locations based on their knowledge of high parcel volume ZIP Codes,
       and locations where customers are more likely to use the parcel delivery lockers.
       The Postal Service plans to expand the pilot to 25 locations. If it places lockers in
       locations with high traffic and parcel volumes, high parcel undeliverable rates, and
       major cities, it could render adequate feedback on the concept. The Postal Service
       should also consider placing gopost parcel delivery lockers in markets on the west
       coast where it is piloting same day delivery services.

      Volume Targets – The 13 parcel delivery locker locations have monthly volume
       averages of between one and 64 parcels per location since deployment (see
       Appendix B). Postal Service officials did not establish performance volume targets,
       nor do they have a formal system for tracking customer satisfaction. The low
       volumes could be because of the chosen site location, the large gap between the
       number of customers pre- and fully registered, the time it is taking customers to
       embrace the new alternative delivery option, or marketing efforts. Officials stated
       that, based on customer feedback received via the call center, emails, and delivery
       units, the responses during the pilot have been positive. Officials should establish a
       process for identifying low performing locations so that they can implement
       strategies to increase volume.

      Number of Parcel Pick-Up Days Allowed – Per Postal Service policy, after a first
       delivery attempt, customers have 15 days to pick up a parcel from the Post Office
       before the Postal Service treats the parcel as undeliverable (returned to sender).11
       As parcel volumes grow, the 15 days may become too long, resulting in parcel
       delivery lockers reaching full capacity. In comparison, other international entities
       allow less time. For example, Deutsche Post DHL allows its customers 9 calendar
       days for parcel pick-ups, and Australia Post only allows 48 hours.12 Officials should
       review parcel pick-up days allowed by posts that use similar systems and determine
       whether it would be feasible to reduce the number of parcel pick-up days.

Features Not in the Pilot

Piloting the parcel delivery locker concept offers the Postal Service an opportunity to
explore ideas in support of long-term investments, revenue generation, and cost
reductions. The opportunity areas we identified relate to exploring the feasibility of
pursuing revenue generating ideas and modifying the concept to reduce costs.


11
     Postal Operations Manual (POM), dated July 2002.
12
     Source: Applicable international post website(s).


                                                         4
U.S. Postal Service Parcel Delivery Lockers                                                               DR-MA-13-002



    Revenue Generation13 – We identified several opportunities the Postal Service
     should consider that would increase revenue:

     o Adding Purchasing Technology and Multiple Language Options – The parcel
       delivery locker’s automated center console does not accept debit and credit
       cards, nor do customers have the ability to purchase postal products in the
       seven locations not in the vicinity of a postal facility.14 Further, the gopost website
       and locker center console only offer one language option (English) for customers.
       In comparison to international entities, we found that Deutsche Post DHL’s
       PackStations accepts debit cards.15 As plans continue to expand, multiple
       language options should be added. Additionally, use of the lockers in locations
       that are not near postal facilities, but offer purchasing technology16 such as
       functionality to support easy parcel shipment returns, could increase customer
       usage and generate revenue.

     o Charging for Extended Holds – For parcels held in lockers for customers beyond
       established timeframes, the Postal Service should consider charging fees to
       generate revenue. ParcelPoint, a nonpostal Australian company, charges its
       customers for locker use. It also charges its customers $2.95 per parcel for
       overdue collections (8 to 14 days after notification).17 The Postal Service could
       also offer mail-holding services for customers who may be away from home for
       extended timeframes; customers may use the service to ensure the security of
       their mail while away.

     o Forming Partnerships – Other courier companies, such as FedEx and UPS,
       cannot use the parcel delivery lockers. Forming a cross-platform concept with
       other couriers to allow them locker usage for a fee could also increase revenue
       because they may also want ways to reduce their missed delivery attempts.
       Australia Post, however, allows other couriers access to its lockers for a fee.
       Additionally, in our research, we found that ParcelPoint is piloting a partnership
       concept that allows other couriers to use its parcel lockers in Australia.18. The
       Postal Service should also consider forming partnerships with online retailers,
       such as Amazon and eBay. The partnerships could reduce the potential for
       duplicative parcel locker networks, as well as help other couriers and online
       retailers reduce costs associated with creating their own lockers concepts.

         Collaborating with banks to add banking features, utility companies to allow bill
         payment features, and local vendors to offer them locker usage for a fee, are
         additional ways to generate revenue. For example, in our research we found that
         Australia Post is piloting a similar concept called Super Stores. Super Stores is a

13
   The Postal Service would need to seek approval by the Postal Regulatory Commission for any revenue-generating
opportunities it pursues.
14
   The Ballston Mall location is the only nonpostal facility location that has a Self-Service Kiosk (SSK) machine near it.
15
   Per Deutsche Post’s website.
16
   Such as adding the SSK (formally called Automated Postal Center) technology.
17
   Source: Applicable international post website(s).
18
   Postal Technology International online article titled TNT Express partners with ParcelPoint.


                                                            5
U.S. Postal Service Parcel Delivery Lockers                                                             DR-MA-13-002



         one-stop self-service store that has parcel delivery lockers available and is also
         considered an online shopping zone (customers can dispatch parcels, purchase
         products, and shop online), with vending services for postal products and
         services. It also partners with other companies to offer customers travel services,
         bill payment services, and automated teller machine services at the Super
         Stores.

     o Reviewing Future Leasing vs. Buying Options – Postal Service officials
       considered contractor-owned options used by international entities. Australia
       Post, for example, does not own its parcel delivery lockers.19 There could be
       challenges, however, with using contractor-owned equipment. Australia Post’s
       contract is with Neopost,20 which is responsible for the receipt, installation, and
       maintenance of the network of lockers. Australia Post, however, informed us that
       it encountered challenges with the integration between its in-house systems and
       the third-party locker systems.

         Postal Service officials decided against contractor-owned options and used a
         contractor that had the Postal Service's corporate knowledge of equipment and
         security needs to build the postal locker systems.21 The Postal Service wanted to
         own its lockers and the security software and keep the management of customer
         data and security in-house and include it as part of an existing patent.22 The
         implementation cost per locker location is about             , which includes site
         preparation, installation, and freight. While the purchase of the parcel delivery
         lockers may be feasible for the pilot test phase, the Postal Service may not be
         able to afford the large investment in the future installation of its own lockers.23
         However, the ownership option creates the possibility of generating additional
         revenue in the future by licensing their patent rights for the design and
         configuration of the lockers and the security software to others for a fee.24

    Cost Reductions – Several cost-reduction opportunities exist for the Postal Service
     to consider, such as:

     o Locker Access Options – During the pilot, the Postal Service provided customers
       with free access cards for parcel delivery lockers and replacement cards. This
       can become costly as its customer base grows. In our research, we found that,
       although Deutsche Post DHL’s website indicates that its customers use cards for
       parcel delivery locker access, Australia Post’s website shows that it does not

19
   Source: Applicable international website.
20
   An Australian company that won the contract in partnership with InPost for Australian Post’s parcel delivery locker
systems. InPost is a Polish company considered to be the biggest mailing alternative in the Polish market and the
world leader in the design and manufacturer of secure electronic parcel lockers.
21
   The Postal Service used the same contractor that designed and built its cluster box units.
22
   A form of intellectual property with exclusive rights granted by a sovereign state to an inventor or their assignee.
23
   Postal Service engineers stated that there are additional hardware costs, most of which related to upfront costs that
would be difficult to identify and apply on a per machine basis. Additionally, an Internet article about Australia Post
indicated that it plans to spend $50 million to deploy 250 parcel lockers (about $200,000 per locker).
24
   The OIG Report, Postal Service Patent Management Continuation (Report Number DA-MA-11-002, dated April 8,
2011), addresses the Postal Service’s opportunity to capitalize on active Postal Service patents.


                                                           6
U.S. Postal Service Parcel Delivery Lockers                                                             DR-MA-13-002



         issue access cards. Australia Post customers register online using account
         numbers and their parcel pick-up notification provides them an access code for
         retrievals. Allowing customers the option to access parcel delivery lockers using
         account numbers instead of physically issuing cards could reduce administrative
         costs.

     o Creating Centralized Delivery/Collection Points – The parcel delivery lockers are
       only for parcels,25 therefore, may not have letter-mail collection boxes nearby.
       With a goal and an existing Delivering Results, Innovation, Value and Efficiency
       Initiative (Delivery Optimization) related to increasing centralized delivery points,
       the parcel delivery lockers create an opportunity to achieve this goal, thereby
       reducing delivery operational costs.

     o Monitoring Reduced Missed Delivery Attempts – Postal Service officials should
       capture and include savings related to reduced missed delivery attempts in their
       DAR as an added benefit for the long-term investment. Australia Post officials
       informed us that they experienced savings related to reducing the number of card
       notifications given to their customers of missed delivery attempts, as well as
       savings associated with their retail outlets resulting from missed deliveries.26 For
       delivery attempts, Postal Service policy requires carriers to leave a missed
       delivery notification card for the customer.27 The notifications can be very
       time-consuming to process because of the time used in missed delivery attempts
       (preparing and leaving the notification card for the customer).28 Using the parcel
       delivery lockers will eliminate some of these costs.

     o Using City Carrier Assistants (CCAs) vs. Full-Time (FT) Carriers –The newly
       added job classification of CCA29 offers a lower wage alternative for servicing
       parcels delivery lockers. CCAs would be the best cost option since these
       deliveries and collections would not have to be on a regular route. Access
       channel officials should collaborate with delivery officials to determine the extent
       that they could use CCAs instead of FT carriers to fulfill parcel delivery locker
       requirements and include the potential savings in the DAR.

Exploring greater possibilities with parcel lockers would allow the Postal Service to
evaluate additional revenue-generating and cost-sharing arrangements and generally
have a more informed basis for determining whether it should implement gopost on a
broader scale. Cost-avoidance opportunities may further substantiate the business
case, as we estimate the Postal Service could avoid workhour costs of between
$147,000 and $634,000 annually for the 13 locations (see Appendix C).



25
   Per Deutsche Post's website, Deutsche Post lockers also accept over-sized letters.
26
   Parcel capacity storage at retail outlets (and staff management of servicing the process) was an issue for Australia
Post.
27
   POM, dated July 2002.
28
   Officials indicated that costs are even higher for 'foot' routes (a route served by a carrier on foot).
29
   Noncareer city letter carrier bargaining unit employee.


                                                           7
U.S. Postal Service Parcel Delivery Lockers                                   DR-MA-13-002




Recommendations

We recommend the vice president, Channel Access, in coordination with the vice
president, Delivery and Post Office Operations:

1. Adjust access and implementation factors in the pilot to maximize customer
   utilization.

2. Add revenue and cost-reduction features to the pilot to maximize return-on-
   investment opportunities.

3. Implement parcel locker best practices and strategies from international entities in
   the pilot where applicable.

Management’s Comments

Management agreed with the findings and recommendations. In subsequent
discussions, management agreed with our 2-year monetary impact range of between
$294,273 and $1,268,615.

For recommendation 1, management stated that they are in the process of developing a
streamlined authentication process that maintains the integrity of the system and allows
a customer to obtain a gopost account without coming to a Post Office. Management
also stated that they are developing a process that allows customers to pick up a
package that the Postal Service was unable to deliver on the first delivery attempt, and
request that a package be placed in gopost for self-service pick up. Management’s
target implementation date is September 2013.

For recommendation 2, management stated that they are actively exploring a number of
features and enhancements that will enable payment of postage and create other
revenue opportunities. In subsequent discussions, management stated that their target
implementation date is September 2013.

For recommendation 3, management stated that they have incorporated international
entities' best practices into their development of parcel lockers and will continue to
incorporate those practices in their planned future development. In subsequent
discussions, management stated that their target date for implementation is September
2013. See Appendix D for management’s comments in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations in the
report and the corrective actions should resolve the issues identified in the report.




                                              8
U.S. Postal Service Parcel Delivery Lockers                                DR-MA-13-002



The OIG considers all recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.




                                              9
U.S. Postal Service Parcel Delivery Lockers                                                          DR-MA-13-002



                                 Appendix A: Additional Information

Background

Growth in online retail is forecasted across all geographies, presenting a healthy growth
opportunity for the parcels market.30 As eCommerce sales continue to increase, parcel
shipping will possibly be one of the most difficult aspects of eCommerce due to
customer concerns related to missed deliveries,31 address mix-ups, stolen parcels, or
weather damaged goods. Customers want easy, convenient, and secure parcel delivery
options. Since fiscal year (FY) 2010, shipping and parcel services have increased and
future growth is projected in FY 2013 (see Table 1).

                   Table 1. 3-Year Shipping and Parcel Trend (in Millions)

                                        FY               FY              FY              FY
                                       2010             2011            2012            2013
                    Trend             Actual           Actual          Actual         Projected
                   Volume                3,057            3,258           3,502            3,700
                   Revenue             $10,156         $10,670          $11,596         $12,800
               Source: Postal Service 2012 Report on Form 10-K and 2013 Integrated Financial Plan.

Traditionally, for parcels that do not fit into a customer’s mailbox, the carrier will attempt
to deliver it to the customer’s door. The carrier will either leave the parcel in a protected
location, follow the mailer/addressee’s delivery instructions, attempt a second delivery,
or leave a delivery notice instructing the customer to pick up the parcel at the Post
Office. With gopost, however, registered customers use their individually issued gopost
card and PIN to ship and receive parcels32 free with gopost addresses recognized by
the Postal Service National Address Management Service. Customers receive
electronic shipping and receiving notifications through email or text. The parcel delivery
locker is a concept already offered by several domestic and international postal and
non-postal operators.

Customers pay their postage for parcels online or with their postage meters. There is no
fee to use the gopost parcel delivery lockers. To ship a parcel, customers scan their
gopost card, enter their PIN, select 'ship parcel,' scan the barcode label, and place the
parcel into available lockers based on size accommodations. To receive a parcel,
customers use their gopost card and PIN to access the designated locker, which lights
up and then closes and locks automatically after parcel retrieval. Additionally, customers
sign their name directly on the screen using their finger for parcels requiring signatures.
If properly sized lockers are not immediately available for parcel delivery, the customer
will receive notification of delivery, adding that he or she will receive the highest priority


30
   Accenture, Achieving High Performance in the Postal Industry, Accenture Research and Highlights 2012.
31
   The postmaster general stated in his December 18, 2012 State of the Post Office speech that carriers were able to
deliver 95 percent of their mail volume.
32
   Acceptable labels include: Click-N-Ship®, PC Postage, and merchant-paid Return Services.


                                                         10
U.S. Postal Service Parcel Delivery Lockers                                                           DR-MA-13-002



for the next available locker of the proper size. The Postal Service standard is to allow
15 days for parcel pickup and then treat the parcel as undeliverable.33

Objective, Scope, and Methodology

Our objective was to assess the parcel delivery locker pilot. To accomplish our
objective, we:

    Reviewed Postal Service documentation, including applicable policies and
     procedures, and prior reports related to parcels.

    Analyzed available parcel locker systems performance data for FYs 2012 and 2013
     for the pilot sites and actual implementation costs to date.

    Interviewed Postal Service Headquarters, Capital Metro Area, and Northern Virginia
     District officials to discuss their parcel delivery lockers, assess the success of their
     pilot sites, and identify additional opportunities in delivery operations.

    Benchmarked with Australia Post, Deutsche Post DHL, and Parcel Point .34

We conducted this review from January through May 2013 in accordance with the
Council of the Inspectors General on Integrity and Efficiency, Quality Standards for
Inspection and Evaluation. We discussed our observations and conclusions with
management on March 22, 2013, and included their comments where appropriate.

To conduct this review, we used computer-processed data from the Enterprise Data
Warehouse, but we did not test controls over the system. However, we checked the
reasonableness of results by reviewing existing information about the data and the
system that produces them. We also relied on system data provided by Postal Service
officials. We determined that the data were sufficiently reliable for the purposes of this
report.




33
   Parcel returned to sender for domestic shipments. International parcels are taken to a nearby Post Office and
returned to the sender after being stored 15 days at the Post Office.
34
   Parcel Point is a nonpostal Australian private company that, per its website, offers parcel locker rentals.


                                                         11
    U.S. Postal Service Parcel Delivery Lockers                                   DR-MA-13-002



    Prior Audit Coverage

                                                         Final
                                                        Report         Monetary
          Report Title             Report Number         Date            Impact
Postal Service Patent              DA-MA-11-002        4/8/2011     $2,523,778,667
Management Continuation
Report Results: We reported that the Postal Service does not manage its portfolio
of patents to maximize commercial significance. Our evaluation, conducted in
conjunction with an intellectual property management firm, determined that the
three patents identified as active and owned by the Postal Service held an annual
commercial value of $18.1 million. Postal Service policy covering new products and
patent licensing agreements seeks to ensure that new and enhanced products
consistently meet customer needs, generate new revenue, and strengthen the
Postal Service as a viable business. The opportunity to capitalize on active Postal
Service patents exists because management has not strategically considered using
patents to generate new revenue. Management partially agreed with
recommendation 3, contingent on the outcome of actions taken in response to
recommendation 2.

Foreign Posts’ Strategies               GAO-11-282         2/16/2011          None
Could Inform U.S. Postal
Service’s Efforts to Modernize
Report Results: The U.S. Government Accountability Office (GAO) examined
initiatives that foreign posts have implemented to improve mail delivery and retail
networks and related results, and modernization strategies used by foreign posts
that can inform consideration of proposals to improve the Postal Service's financial
condition and customer service. GAO selected foreign posts in Australia, Canada,
Finland, Germany, Sweden, and Switzerland as case studies based on
characteristics, such as delivery and retail changes and country size and location.
GAO found that the foreign posts have developed alternative delivery choices for
customers that, according to the posts, have reduced costs and improved customer
satisfaction and service. The Postal Service generally agreed with GAO’s
conclusion that it must pursue modernization and that modernization could be more
quickly and effectively instituted if legal and political barriers are removed.




                                                  12
                U.S. Postal Service Parcel Delivery Lockers                                                                  DR-MA-13-002



                                        Appendix B: Pilot Site Locations and Performance Data

                                                                                                                                                  Average
                                                                                                        Months      FY         FY                 Parcels
                                               Responsible                                 Deployment     In       2012       2013       Total      per
         Area                District          Delivery Unit        gopost Location            Date     Service   Parcels   Parcels35   Parcels    Month
     Capital             Northern          Merrifield Main         Merrifield Main           February
1    Metro               Virginia          Post Office             Post Office                 2012         11
     Capital             Northern          Buckingham              Ballston Common           February
2    Metro               Virginia          Carrier Annex           Mall                        2012         11
     Capital             Northern          Prince William          Prince William            February
3    Metro               Virginia          Post Office             Post Office                 2012         11
     Capital             Northern          South Station Post      Arlington South           February
4    Metro               Virginia          Office                  Station Post Office         2012         11
     Capital             Northern                                                            February
5    Metro               Virginia          Chantilly Post Office   Chantilly Post Office       2012         11
     Capital             Northern          Kingstowne              Kingstowne                February
6    Metro               Virginia          Post Office             Post Office                 2012         11
     Capital             Northern          Centreville             Centreville               February
7    Metro               Virginia          Main Post Office        Main Post Office            2012         11
     Capital             Northern                                                              July
8    Metro               Virginia          Eads Carrier Annex      Pentagon Centre             2012          6
     Capital             Northern          West Springfield        Old Keene Mill              July
9    Metro               Virginia          Post Office             Shopping Center             2012          6
     Capital             Northern          Community               7770 Richmond               July
10   Metro               Virginia          Post Office             Hwy                         2012          6
     Capital                               Rockville               Montrose Crossing        September
11   Metro               Capital           Carrier Annex           Shopping Center             2012          4       N/A
     Capital                               Rockville               Congressional            September
12   Metro               Capital           Carrier Annex           Plaza                       2012          4       N/A
     Capital                               North College Park      Campus                   September
13   Metro               Capital           Post Office             Village Shoppes             2012          4       N/A


                                           Grand Central           Grand Central
                                           Station                 Station                  February
14   Northeast           New York          Post Office             Post Office                2013           0       N/A         N/A       N/A        N/A
                                           Manhattanville          Manhattanville           February
15   Northeast           New York          Station                 Station                    2013           0       N/A         N/A       N/A        N/A
     Capital             Northern          West Springfield                                  To be
16   Metro               Virginia          Post Office             Burke Towne Plaza       determined        0       N/A         N/A       N/A        N/A
Total Parcels by Fiscal Year
Total Parcels
                Note: N/A means not applicable.

                Source: U.S. Postal Service Headquarters.




                35
                     Volume data as of January 2013.


                                                                                13
     U.S. Postal Service Parcel Delivery Lockers                                                            DR-MA-13-002




                                          Appendix C: Monetary Impacts

                                                                                           Amount                  Amount
                                                                                         Over 2-Years            Over 2 Years
                                                                                           (1-Hour                 (6-Hour
Recommendation                        Impact Category                                     Scenario)               Scenario)
      2                  Funds Put to Better Use36 (CCA)                                      $194,868              $1,169,210
                         Funds Put to Better Use
      2                 (Reduced Missed Delivery Attempts)                                        99,405                  99,405
    Total                                                                                       $294,273              $1,268,615

     City Carrier Assistant

     We determined the Postal Service should consider using CCAs to deliver and retrieve
     parcels from gopost lockers because their hourly labor rates are lower than FT carriers’
     labor rates. CCAs hourly labor rate can be as low as $16.25,37 which is $24.74 less than
     a FT carrier’s overtime hourly rate.38 Using this difference, we determined that, for each
     gopost location, the annual savings (per workhour used by a CCA instead of a FT
     carrier) would be $7,494.94 when compared to a FT carrier’s overtime rate.39 Using this
     estimated annual savings per gopost location, we calculated total savings for the
     13 existing gopost locations in operation as of January 2013, using a scenario of 1 to
     6 hours per day.40 We computed annual cost avoidances of between $97,434.20 and
     $584,605.17 when comparing a CCA labor rate for 6 hours to a FT carrier overtime rate,
     or between $194,868.38 and $1,169,210.34 over 2 years.

     Reduced Missed Delivery Attempts

     We estimated that processing a missed delivery attempt notification card, along with the
     subsequent requirement to scan, could take about 2 minutes41 per parcel. This equates
     to about 30.3 workhours (or 1,819 minutes) potentially saved for 910 of the 2,295 total



     36
        Funds that could be used more efficiently by implementing recommended actions.
     37
        Starting salary for transitional employees hired to a CCA Grade 1 position. However, officials indicated that this
     figure could change in the future under The President’s Obama Care plan signed into law on March 23, 2010.
     38
        FY 2013 $40.99 FT overtime hourly rate, minus $16.25 CCA hourly rate.
     39
        $24.74 difference between a FT overtime hourly rate and the CCA rate, times, 303 delivery days for FY 2013.
     40
        Six hours used based on estimated time provided by district postal officials for the length of time it would take to
     fulfill gopost locker requirements at full capacity. However, Postal Service engineers indicated that they used a small
     sample to perform a time-in-motion study, which indicated that it would take about one hour to service a gopost at full
     capacity (each gopost has 80 lockers), instead of the six hour estimate we received from district management officials
     who are responsible for managing the daily delivery operation. Therefore, we used a range of 1 to 6 hours to estimate
     cost avoidances. Gopost fulfillment processes would include parcel handling at the office in the morning; travel time
     to gopost locations; trips back and forth to the vehicle to obtain parcels to load into lockers; and entering screen
     prompts to process each parcel delivery and shipment. Additionally, the estimate includes carriers’ time to load
     parcels into vehicles shipped through gopost, load parcels back into vehicles that they could not load into lockers,
     and processing parcels brought back to the office.
     41
        Two minutes based on estimated time provided by district postal officials.


                                                               14
U.S. Postal Service Parcel Delivery Lockers                                                                 DR-MA-13-002



parcels sent to gopost during FY 2012.42 Using the FT carrier standard rate for the
30.3 workhours saved for the 910 parcels, this equates to an annual cost avoidance of
$49,702.54, or $99,405.08 over 2 years.




42
  First attempt parcel delivery success rate for Northern Virginia District (district with majority of gopost lockers) for
FY 2012 was 60.37 percent; therefore, we excluded 60.37 percent of the 2,295 parcels for FY 2012 for our
computation.


                                                             15
U.S. Postal Service Parcel Delivery Lockers                     DR-MA-13-002



                            Appendix D: Management's Comments




                                              16
U.S. Postal Service Parcel Delivery Lockers        DR-MA-13-002




                                              17
